mm
I

COCKLE

Le ga 1 Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

CESAR VIZCARRA; JORGE BRAMBILA,
Petitioners,
vs.

MONICA ORTIZ, individually and as co-successor
in interest to decedent Christian Pena;
NORMA PENA, individually,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8964 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 lth day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska : LE Qudraw- ,
My Commission Expires Nov 24, 2020 ,

Notary Public Affiant

 

 

38849
